BRUCE

KASTER LYNCH
FARRAR BALULP

R.

KASTER

PARTNER
bruceethetirelawyers.corn

SKIP EDWARD LYNCH

PARTNER
skips thetirelawyers.com

KYLE W. FARRAR

TEXAS I FLORIDA

PARTNER
kylegthetirelawyers.com

WESLEY TODD BALL

PARTNER
wes@thetirelawyers.corn

October. 10, 2019
Via FedEx
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St, NE
Washington, DC 20543
Re: Ford .Adator .Campany vs. Adam Bandemer, No. 19-369
Dear Mr. Harris:
1 represent Respondent Adam Bandemer in the above referenced matter. Mr. Bandemer's
response to the petition is currently due on October 21, 2019, and I am currently not admitted to
the Bar of the Supreine Court of the United States. In accordance with Rule 30,4, I am requesting
a 30 day extension of time, to and including November 20.2019, within which to respond to
Petitioner, Ford Motor Company's Petition for Writ of Certiorari.
I have conferred with counsel forPetitioner, Ford Motor Company and they have no
objection to Respondent'S, request for extension;
Regards

Kyle Wayne Farrar

KWF/dm
CC:

'Sean Marotta — Via Electronic Mail

125 NE First Avenue I Suite 3. I Ocala, Florida 34470 I. p 352.622,1600 I f 352.622.1611
theiirelawyers.com

